NO.

 

IN THE SUPREME COURT OF THE UNITED STATES

OCTOBER TERM, 2020

 

Beau Brandon Croghan - Petitioner,
vs.

United States of America - Respondent.

 

Motion For Leave to Proceed In Forma Pauperis

 

Pursuant to Rule 39 of the Rules of this Court, the Petitioner, Beau Brandon
Croghan, asks leave to file the attached Petition for Writ of Certiorari, without
prepayment of costs, and to proceed in forma pauperis.

The petitioner was represented by counsel appointed pursuant to Title 18,
United States Code Section 3006A (the Criminal Justice Act) both in the district
court and on appeal to the United States Court of Appeals for the Eighth Circuit.

Petitioner is incarcerated and remains indigent.

RESPECTFULLY SUBMITTED,

ny ) \ 4 \ Ww
Brad ‘Hansen

Acting Federal Public Defender |
400 Locust Street, Suite 340 |
Des Moines, Iowa 50309

TELEPHONE: (515) 309-9610

FAX: (515) 309-9625

EMAIL: brad_hansen@fd.org

ATTORNEY FOR PETITIONER
